No. 20In THE

Supreme CEnitrt of tl]£ Unite?) States
DONALD J. TRUMP FOR PRESIDENT, INC.,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF THE COMMONWEALTH
OF PENNSYLVANIA, et al.,
Respondents.

On Petition for Writs of Certiorari to the Supreme Court of Pennsylvania

MOTION FOR EXPEDITED CONSIDERATION

Bruce S. Marks, Esq.
Marks & Sokolov, LLC
1835 Market Street, Suite 1717
Philadelphia, PA 19103
(215) 569-8901

John C. Eastman, Esq.
Counsel of Record
174 West Lincoln Avenue, Suite 620
Anaheim, CA 92805
(909) 257-3869
jeastman562@gmail.com

Counsel for Petitioners

300748

0

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859

MOTION FOR EXPEDITED CONSIDERATION OF THE
PETITION FOR A WRIT OF CERTIORARI AND
EXPEDITED MERITS BRIEFING AND ORAL ARGUMENT
IN THE EVENT THAT THE COURT GRANTS THE PETITION
Petitioner Donald J. Trump for President, Inc., the re-election campaign for
President Trump, respectfully requests, pursuant to Supreme Court Rule 21, that
this Court expedite its consideration of the petition for a writ of certiorari filed today.
Petitioner further requests, pursuant to Supreme Court Rule 25.4, that if the petition
is granted, the Court expedite the schedule for briefing and oral argument, if the
Court deems such helpful. Such expedited review would allow an orderly and timely
resolution of the important questions presented under the U.S. Constitution and
federal law. It is in the best interests of the parties, as well as the Nation, that this
Court have as much time as possible to consider the relative merits of the parties’
positions and to issue its decision sufficiently in advance of impending deadlines.
The Cases At Issue
Petitioner seeks a writ of certiorari to review the constitutionality of three
related Pennsylvania Supreme Court opinions eviscerating the laws enacted by the
Pennsylvania Legislature governing the election of presidential electors in the middle
of the 2020 Presidential election, in violation of Article II and Bush v. Gore, 531 U.S.
98 (2000).1 A related decision, Pennsylvania Democratic Party v. Boockvar, 238 A.3d

1 The petition is filed now as the need for relief did not fully ripen until this Court
denied relief in Kelly v. Commonwealth of Penn. (No. 20A98) and did not grant the
motion to file the bill of complaint in State of Tex. v. Commonwealth of Penn. (No.
220155).
1

345 (Pa. Sep. 17, 2020) (extending the statutory deadline for receipt of absentee and
mail ballots for three days), is already before this Court (No. 20-542).2 The additional
three Pennsylvania Supreme Court decisions are:
(1)

In re November 3, 2020 Gen. Election, No. 149 MM 2020, 240 A.3d
591 (Pa. Oct. 23, 2020), reprinted in Petitioner’s Appendix (“Pet.
App.”) C (changing the law and prohibiting verification of signatures
on absentee and mail ballot declarations and eliminating the
statutory right for parties and campaigns to challenge absentee and
mail ballots during canvassing on Election Day);

(2) In re Canvassing Observation, No. 30 EAP 2020, 2020 Pa. LEXIS
58792020, WL 6737895 (Pa. Nov. 17, 2020), Pet. App. B (eliminating
campaigns’ statutory right to meaningfully observe canvassing of
absentee and mail ballots on Election Day); and
(3) In re Canvass of Absentee & Mail-In Ballots of Nov. 3, 2020 Gen.
Election, Nos. 31 EAP 2020, 32 EAP 2020, 33 EAP 2020, 34 EAP
2020, 35 EAP 2020, 29 WAP 2020, 2020 Pa. LEXIS 5989, 2020 WL
6875017 (Pa. Nov. 23, 2020), Pet. App. A (eliminating or modifying
statutory requirements for signing, addressing, and dating absentee
and mail-in ballot declarations).
As Justice Alito, joined by Justice Thomas and Justice Gorsuch, noted
regarding the Pennsylvania Supreme Court decision already before it:
The Supreme Court of Pennsylvania has issued a decree [Pennsylvania
Democratic Party v. Boockvar, 238 A.3d 345 (Pa. Sep. 17, 2020)] that
squarely alters an important statutory provision enacted by the
Pennsylvania Legislature pursuant to its authority under the
Constitution of the United States to make rules governing the conduct
of elections for federal office. ...
[TJhe constitutionality of the State Supreme Court’s decision ...
has national importance, and there is a strong likelihood that
the State Supreme Court decision violates the Federal
Constitution. The provisions of the Federal Constitution conferring on
2 Petitioner’s motion to intervene in this case is pending.
2

state legislatures, not state courts, the authority to make rules
governing federal elections would be meaningless if a state court could
override the rules adopted by the legislature simply by claiming that a
state constitutional provision gave the courts the authority to make
whatever rules it thought appropriate for the conduct of a fair election.
Republican Party v. Boockvar, 208 L.Ed.2d 266, 267, 2020 U.S. LEXIS 5188, 2020 WL
6304626 (2020) (citing U.S. Const, art. I, §4, cl. 1; art. II, §1, cl. 2; Bush v. Palm Beach
Cty. Canvassing Bd., 531 U. S. 70, 76 (2000)) (emphasis added).

Likewise, the

Pennsylvania Supreme Court’s three decisions that are the basis of Petitioner’s writ
of certiorari before this Court raise substantial federal questions as to the
Commonwealth’s compliance with art. II, §1, cl. 2 and 3 U.S.C. §5, which govern the
manner in which States handle Presidential elections. See also Bush v. Gore, 531
U.S. at 113 (“A significant departure from the legislative scheme for appointing
Presidential electors presents a federal constitutional question.”) (Rehnquist, C.J.,
concurring).
The Pennsylvania Supreme Court’s decisions involve issues of the utmost
federal importance involving the Constitution's most fundamental rights as exercised
in the Nation's most important election.

The outcome of the election for the

Presidency of the United States hangs in the balance because the selection of
presidential electors is governed by the Constitution and congressional enactment, in
addition to state law enacted by the Legislature. In the four related opinions, the
Pennsylvania Supreme Court dramatically changed Pennsylvania law governing

3

absentee and mail voting during the 2020 Presidential election,3 which likely changed
the result in Pennsylvania and, potentially, the outcome of the overall Presidential
election. The Pennsylvania Supreme Court’s changes are contrary to settled caselaw,
the unambiguous language of the Election Code of the Commonwealth of
Pennsylvania, and Bush u. Gore, 531 U.S. at 104-05 (“Having once granted the right
to vote on equal terms, the State may not, by later arbitrary and disparate treatment,
value one person’s vote over that of another.”). Only the state Legislatures, not the
Courts, are empowered to set (or change) the rules for selecting Presidential electors.
The Need for Expedited Consideration
This Court should review the Pennsylvania Supreme Court’s decisions and
enter an appropriate remedy on an expedited basis.
First, the ordinary briefing schedules prescribed by Rules 15 and 25 of this
Court would not allow the case to be considered and decided before the results of the
general election must be finalized before the following upcoming deadlines: Congress
is scheduled to count the electoral votes and declare a winner on January 6, 2021 (see
3 U.S.C. § 15), and Inauguration Day for the President and Vice President is January
20, 2021 (see U.S. Const, amend. XX), only approximately 30 days from now. These
deadlines would expire before the completion of briefing, argument, and a decision on
the merits under the Court's default rules. See U.S. Sup. Ct. R. 15, 25.

3 That the changes to the Commonwealth's Election Code were imposed by judicial
fiat at the last minute just weeks and days before the election only underscores the
error. See, e.g., Purcell v. Gonzalez, 549 U.S. 1, 4-5 (2006).
4

Second, time is plainly of the essence because once candidates have taken
office, it will be impossible to repair election results tainted by illegally and belatedly
cast or absentee and mail ballots.

Thus, without expedited review, Petitioner’s

appellate rights-and this Court's power to resolve the important constitutional and
legal questions presented for this election may be irrevocably lost. See, e.g., Bush v.
Palm Beach Cty. Canvassing Bd., 531 U.S. 1004, 1005 (2000) (granting petitioner’s
motion to expedite consideration of petition for a writ of certiorari).
Third, this Court’s expedited review will in no way prejudice Respondents,
many of which are state government agencies which have a similar interest that the
Constitution be followed.
Finally, if this matter is not timely resolved, not only Petitioner, but the
Nation as a whole may suffer injury from the resulting confusion. Indeed, the intense
national and worldwide attention on the 2020 Presidential election only foreshadows
the disruption that may well follow if the uncertainty and unfairness shrouding this
election are allowed to persist. The importance of a prompt resolution of the federal
constitutional questions presented by this case cannot be overstated.
Accordingly, Petitioner submits that Respondents should be directed to file
their response(s) to the petition by 12:00 noon on December 23, 2020; and Petitioner
submit its Reply Brief in support of certiorari by 12:00 noon on December 24, 2020.
If certiorari is granted, if the Court deems additional briefing will be helpful,
Petitioner submits that the Court should order expedited contemporaneous opening
5

merits briefs for Petitioner and Respondents, together with any amicus curiae briefs.
and contemporaneous Reply briefs for Petitioner and Respondents within 24 hours
thereafter. If oral argument is deemed helpful, Petitioner submits that it should be
ordered expedited, as well.
Respectfully submitted this 20th day of December, 2020.
John C. Eastman
Counsel of Record
174 W. Lincoln Ave, #620
Anaheim, CA 92805
(909) 257-3869
Jeastman562@gmail.com

Bruce S. Marks
Marks & Sokolov, LLC
1835 Market St., #1717
Phil., PA 19103
(215) 569-8901
Marks@mslegal.com

Counsel for Petitioner

6

